No. 19-233
In the

Supreme Court of the United States
ERYON LUKE,
Petitioner,
v.
CPLACE FOREST PARK SNF, L.L.C.,
Respondent.

On Petition for a Writ of Certiorari to the United
States Court of A ppeals for the Fifth Circuit

REPLY BRIEF FOR THE PETITIONER

Victor J. Woods, Jr.
Counsel of Record
3834 New Prosperity Lane,
Suite A
Addis, Louisiana 70710
(225) 749-8696
victor@dlwlegal.com
Counsel for Petitioner
October 14, 2019
291908

A
(800) 274-3321 • (800) 359-6859

i
TABLE OF CONTENTS
Page
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . . . . i
TABLE OF CITED AUTHORITIES . . . . . . . . . . . . . . . ii
REPLY BRIEF FOR THE PETITIONER . . . . . . . . . . 1
ARGUMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
I.

Petitioner’s Petition for Writ of Certiorari does
assert compelling issues regarding whether
Young vs. United Parcel Service, Inc., 135
S.Ct. 1338 (2015) been applied correctly. . . . . . . . 2

II. The Fifth Circuit’s decision in which
Petitioner Eryon Luke is seeking a writ
of certiorari conflicts with the Court’s
new framework in reviewing cases under
the modified McDonnell test rendered
in Young vs. United Parcel Service, Inc.,
135 S.Ct. 1338 (2015). . . . . . . . . . . . . . . . . . . . . . . . 6
III. There is a conflict regarding the Fifth
Circuit decision pertaining to the application
and type of comparators that maybe used
in determining whether a pretext exist
concerning an employer’s reason for denying
an accommodation in contradiction to those
allowed by the Eighth Circuit as enunciated
in Deneen v. Northwest Airlines, Inc.,
132 F.3d 431 (8th Cir. 1987).  . . . . . . . . . . . . . . . . 10
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12

ii
TABLE OF CITED AUTHORITIES
Page
CASES:
Deneen v. Northwest Airlines, Inc.,
132 F.3d 431 (8th Cir. 1987) . . . . . . . . . . . . . . .  1, 10, 11
Minor v. Bostwick Labs., Inc.,
669 F. 3d 428 (CA4 2012)  . . . . . . . . . . . . . . . . . . . . . . . 3
Plumley vs. Austin,
135 S. Ct. 828 (2015) . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
Teamsters v. United States,
431 U.S. 324 (1977) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
Young v. United Parcel Service, Inc.,
135 S. Ct. 1338 (2015) . . . . . . . . . . . . . . . . . . . . . passim
STATUTES AND OTHER AUTHORITIES:
42 U.S.C. § 2000e(k) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
42 U.S.C. §§ 2000e et seq. . . . . . . . . . . . . . . . . . . . . . . . . 12
Fed. R. of App. Proc. § 29(a) . . . . . . . . . . . . . . . . . . . . . . 13
Fed. R. of App. Proc. § 32.1 . . . . . . . . . . . . . . . . . . . . . . . . 4
Equal Employment Opportunity Commission . . . . . . . 12
The Fourth Circuit’s Local Rule 36(a) .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 3

iii
Cited Authorities
Page
The Fourth Circuit’s Local Rule 36(a)(i) . . . . . . . . . . . . . 3
The Fourth Circuit’s Local Rule 36(a)(ii)  . . . . . . . . . . . . 3
The Fourth Circuit’s Local Rule 36(a)(v) . . . . . . . . . . . . . 3
Title VII of the Civil Rights Act of 1964 . . . . . . . . . . . . 12
“Citing Unpublished Federal Appellate Opinions
Issued Before 2007,” Robert Timothy Reagan of
Federal Judicial Center, March 9, 2007 . . . . . . . . . . . 4
“Precedent and Justice” Valparaiso University
ValpoScholar Law Faculty Publications
Law Faculty Presentations and Publications
2011, William D. Bader David R. Cleveland,
Valparaiso University . . . . . . . . . . . . . . . . . . . . . . . . . . 5
DEBRA CASSENS WEISS FEBRUARY 4,
2015, 6:15 AM CST . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4

1
REPLY BRIEF FOR THE PETITIONER
Petitioner, Eryon Luke, seeks a writ of certiorari
of the Fifth Circuit’s decision that held her failure-toaccommodate claim fails because she was unable to
show, as required by the fourth prong of the McDonnell
Douglas that Respondent’s reason to accommodate was
not pretextual. The Fifth Circuit committed significant
error by failing to properly apply the Court’s holding in
Young, supra Petitioner now responds to objections raised
by Respondent to her Petition for Writ of Certiorari as
follows:
I.

Petitioner’s Petition for Writ of Certiorari does
assert compelling issues regarding whether
Young vs. United Parcel Service, Inc., 135 S.Ct.
1338 (2015) been applied correctly.

II. The Fifth Circuit’s decision in which Petitioner
Eryon Luke is seeking a writ of certiorari
conflicts with the Court’s new framework in
reviewing cases under the modified McDonnell
test rendered in Young vs. United Parcel Service,
Inc., 135 S.Ct. 1338 (2015).
III. There is a conflict regarding the Fifth Circuit
decision pertaining to the application and type
of comparators that maybe used in determining
whether a pretext exist concerning an employer’s
reason for deny ing an accommodation in
contradiction to those allowed by the Eighth
Circuit as enunciated in Deneen v. Northwest
Airlines, Inc., 132 F.3d 431 (8th Cir. 1987).

2
ARGUMENT
The Fifth Circuit committed legal error by failing
to properly apply the Court’s holding in Young, supra. It
failed to apply the modified McDonnell Douglas analysis
that the Court outlined for cases involving denial of
a pregnancy accommodation under the Pregnancy
Discrimination Act; hereinafter referred to as the PDA,
and failed to consider comparator evidence that the
plaintiff proffered in support of her case as stated in
argument herein as follows:
I.	 Petitioner’s Petition for Writ of Certiorari does
assert compelling issues regarding whether Young
vs. United Parcel Service, Inc.,135 S.Ct. 1338 (2015)
been applied correctly.
Contrary to Respondent’s assertion, Petitioner does
present significant issues of importance. Respondent’s
assertion that Luke’s writ should be rejected on the
basis that the Fifth Circuit’s decision was unpublished
is unsound.
Respondent cites Justice Clarence Thomas’ dissent in
Plumley vs. Austin 135 S. Ct. 828, 831 (2015) as a basis for
denial of certiorari due to an opinion being unpublished;
however, upon review of Justice Thomas dissenting opinion
it states the opposite. He argues that the court should have
granted certiorari to review the unpublished decision of
the 4th U.S. Circuit Court of Appeals in Plumley. Justice
Thomas writes:
“True enough, the decision below is unpublished
and therefore lacks precedential force in the

3
Fourth Circuit. Minor v. Bostwick Labs., Inc.,
669 F. 3d 428, 433, n. 6 (CA4 2012). But that
in itself is yet another disturbing aspect of
the Fourth Circuit’s decision, and yet another
reason to grant review. The Court of Appeals
had full briefing and argument on Austin’s claim
of judicial vindictiveness. It analyzed the claim
in a 39-page opinion written over a dissent. By
any standard—and certainly by the Fourth
Circuit’s own—this decision should have been
published. The Fourth Circuit’s Local Rule
36(a) provides that opinions will be published
only if they satisfy one or more of five standards
of publication. The opinion in this case met
at least three of them: it “establishe[d] . . . a
rule of law within th[at] Circuit,” “involve[d] a
legal issue of continuing public interest,” and
“create[d] a conflict with a decision in another
circuit.” Rules 36(a)(i), (ii), (v) (2015). It is hard
to imagine a reason that the Court of Appeals
would not have published this opinion except
to avoid creating binding law for the Circuit.”
Petitioner’s case on appeal to the Fifth Circuit was also
fully briefed, oral arguments were heard after requested,
and a written decision given. Petitioner contends that the
Fifth Circuit’s decision involves a legal issue of continuing
public interest and created a conflict with a decision in
another appellate court, more specifically the Eighth
Circuit.
As further Pointed out in a 2015 ABA article citing a
New York Times article, it was said:

4
“The Times points out that Thomas isn’t the
only Supreme Court justice to have raised
questions about unpublished opinions. In a
1991 dissent, Justice Harry A. Blackmun said
nonpublication “must not be a convenient means
to prevent review.
Justice John Paul Stevens said in a 2006
interview he was more likely to grant review
of unpublished decisions “on the theory that
occasionally judges will use the unpublished
opinion as a device to reach a decision that
might be a little hard to justify.”1
Federal Rule of Appellate Procedure 32.1 permits
attorneys to cite to federal courts of appeals their
unpublished opinions issued in 2007 or later. 2 Respondents
position that Petitioner’s writ should be denied without
further justification because the Fifth Circuit deemed it
of no precedential value fails to recognize that the Federal
Rules allow such opinions to be cited in support of or
contradiction to a legal premise. To deny review solely
on the basis that a decision is unpublished would weaken
our system of review as stated by William D. Bader and
David R. Cleveland as follows:

1. Are some opinions unpublished to avoid review? Thomas
dissent highlights the issue by DEBRA CASSENS WEISS
FEBRUARY 4, 2015, 6:15 AM CST
2. “Citing Unpublished Federal Appellate Opinions Issued
Before 2007” by Robert Timothy Reagan of Federal Judicial
Center, March 9, 2007

5
“Some decisions failed to locate any principle
of jurisprudence that would justify the creation
of unpublished opinions and non-precedential
precedents. In fact, the whole idea of justifying
such a fundamental departure from the
common law’s treatment of precedent was
dubbed a “morass of jurisprudence,” and no
further inquiry was made into the propriety
of courts removing their decisions from the
body of precedent. Without any jurisprudential
justification or even open examination, our
federal judicial system has abandoned the
core mechanism of the common law in order to
manage the increased caseload. By creating
and perpetuating a system of non-precedential
decision-making within our common law courts,
it has unwittingly and unreflectively weakened
the cornerstone of our system of justice.” 3
The Court sought to clarify the meaning of the PDA
in its decision in Young; however, the Fifth Circuit still
has veered away from the reasoning set forth. Although
the PDA has been around for 40 years, pregnancy
discrimination is still a reality for many workers.
Certainly, Respondent’s argument that this case has no
precedential value is clearly incorrect given there is a
significant deviation by the Fifth Circuit regarding its
interpretation of the modified McDonell test and failure
to determine what type of comparators may be used.
3. “Precedent and Justice” Valparaiso University ValpoScholar
Law Faculty Publications Law Faculty Presentations and
Publications 2011, William D. Bader David R. Cleveland Valparaiso
University,

6
“Giving birth should be your greatest achievement, not
your greatest fear.”4 A pregnant woman should not have
to fear whether she will be able to take care of her child
because she loses her job when giving her child life. Clarity
regarding a pregnant woman’s right under the Pregnancy
Discrimination Act as further defined under Young, supra.
would help alleviate that fear.
II.	 The Fifth Circuit’s decision in which Petitioner
Eryon Luke is seeking a writ of certiorari conflicts
with the Court’s new framework in reviewing cases
under the modified McDonnell test rendered in
Young vs. United Parcel Service, Inc., 135 S.Ct. 1338
(2015).
The 5th Circuit’s decision held Petitioner’s failureto-accommodate claim fails because she was unable to
show, as required by the fourth prong of the McDonnell
Douglas that Respondent’s reason to accommodate was
not pretextual. The only stated reason for denying an
accommodation by Respondent was that they did not offer
light duty giving no further explanation. The Court’s
ruling leads to the conclusion that the Fifth Circuit is
relying on its Pre- Young precedent that a pregnant
woman was not entitled to an accommodation if they could
not perform essential functions of her job, As a practical
matter, the 5th Circuit’s ruling allows an employer to
escape liability by merely claiming they do not offer light
duty without having to provide further explanation as
required by Young, supra. The Court’s acceptance without
further clarification meant that if a pregnant woman
4. Statement of American singer and actress Mary
Weidman

7
needed an accommodation in order to work when light duty
was required, she could never meet the fourth prong of
showing pretext. Young modified the standard regarding
the obligation of employer regarding its nondiscriminatory
reason. See Young, 135 S. Ct. at
which states:
“The employer may then seek to justify its
refusal to accommodate the plaintiff by relying
on “legitimate, nondiscriminatory” reasons for
denying her accommodation. 411 U. S., at 802.
But, consistent with the Act’s basic objective,
that reason normally cannot consist simply of a
claim that it is more expensive or less convenient
to add pregnant women to the category of those
(“similar in their ability or inability to work”)
whom the employer accommodates. After all,
the employer in Gilbert could in all likelihood
have made just such a claim.”
Respondent’s only stated reason for denying Petitioner
light duty was that it did not offer such. With its holding
in Luke, the Fifth Circuit has, in effect, reinstated the
satisfactory performance requirement by permitting
employers to escape their obligation to accommodate
pregnant employees if the employer says that the employee
could not perform the essential functions of her job. If the
Luke ruling is allowed to stand, pregnant workers in the
Fifth Circuit will once again be unable to get necessary
accommodations if they need them in order to do their
jobs – even if the employer gives accommodations to
others, such as those injured on the job, who are unable
to perform the essential functions of their jobs without
accommodation.

8
The Fifth Circuit’s opinion in Luke deviates from
the standard enunciated in Young. After assuming Luke
had presented a sufficient prima facie case, the panel
accepted the employer’s stated reason for terminating
Luke, namely, that it did not provide light duty thereby
essentially denying her the ability to work because she
could not “perform an essential aspect of her job,” which
it found to be the “ultimate question.” Slip op. at 3-4. But
Young directed that, instead, it should have considered
whether Luke’s employer had proffered a legitimate
nondiscriminatory reason for refusing to accommodate
her when it did accommodate non-pregnant employees
who were similar in their ability to work, and whether
the proffered reason was based on something other than
the employer’s cost or convenience. See Young, 135 S. Ct.
at 1354 (describing second step of analysis). The Fifth
Circuit’s opinion’s deviation from Young is underscored
by the fact that Peggy Young had a lifting restriction,
Young, 135 S. Ct. at 1344, and whether she could perform
an essential aspect of her job never entered this Court’s
analysis. The Fifth Circuit’s avoidance of the refusal
to accommodate claim allowed the employer to avoid
explaining why it accommodated others but not the
pregnant employee – thereby exempting the employer
from meeting the second step of the Young framework and
preventing Luke from challenging its explanation in the
third step of that framework. It allowed the employer to
benefit from a fact pattern that it had itself created: the
only reason Luke could not perform all of the functions of
her job is that the employer refused to accommodate her
with lifting assistance or job modification, even though it
provided both to other employees.
The approach taken in the Fifth Circuit’s opinion
conflicts with the spirit and letter of Young in additional

9
ways. It distorted Luke’s refusal-to-accommodate claim
into a termination claim, even though Young made clear
that the refusal to accommodate when similarly-abled nonpregnant employees are accommodated is a presumptive
violation of the PDA. If allowed to stand, this distortion
would allow employers to insulate themselves from
PDA liability by first denying pregnant employees the
accommodations they need – regardless of whether they
accommodate nonpregnant employees who are similar in
their ability or inability to work – and then terminating
them for not being capable of performing all of their
job duties. The conflict with Young arises because the
Fifth Circuit’s opinion deemed the employer’s reason for
termination to be the “ultimate question” (slip op. at 4) –
even though, according to Young, the ultimate question is
“why, when the employer accommodated so many, could it
not accommodate pregnant women as well?” Id. at 1355.
Rather tha n merely consider whether Lu ke
had”offer[ed] evidence adequate to create an inference that
an employment decision was based on a discriminatory
criterion illegal under the Act,” Teamsters v. United
States, 431 U.S. 324, 358 (1977) (emphasis added), the court
instead effectively demanded that she “succeed on ‘an
ultimate finding of fact as to’ a discriminatory employment
action.” Young, 135 S. Ct. at 1354 (quoting Furnco, 438
U.S. at 576). The analytical framework used by the Fifth
Circuit to reach its legal conclusions is contrary to the
modified McDonnell Douglas framework enunciated in
Young. More specifically, The Fifth Circuit’s legal analysis
regarding a legitimate nondiscriminatory reason was
too narrowly defined considering the Court’s decision in
Young. These holding flouts Young’s directive, poses a
nearly insuperable bar to liability, and should not stand.

10
III.	There is a conflict regarding the Fifth Circuit
decision pertaining to the application and type
of comparators that maybe used in determining
whether a pretext exist concerning an employer’s
rea son for deny ing a n accommodation in
contradiction to those allowed by the Eighth Circuit
as enunciated in Deneen v. Northwest Airlines, Inc.,
132 F.3d 431 (8th Cir. 1987).
There is a wide variation among courts regarding
what constitutes an appropriate comparator; however, the
language of the Eighth Circuit is instructive regarding
a pregnant woman being compared as a comparator to
herself. Respondent does not dispute that the Fifth Circuit
did not address Petitioner’s contention that a pregnant
woman could be considered as a comparator to herself prepregnancy as recognized in Deneen v. Northwest Airlines,
Inc., 132 F.3d 431 (8th Cir. 1987). Respondent’s argument
that the Fifth Circuit’s silence on this issue suggest that
there is no conflict is a false assumption. To the contrary,
the Fifth Circuit’s silence to Petitioner’s claim that she
should be compared to herself pre-pregnancy when she
received lifting assistance was in fact a denial of the of
that very principle as set forth in Deneen.
Petitioner asserts a compelling reason for grating its
writ is due to the need for clarification of what constitutes
a comparator. The Fifth Circuit refused to even address
the issue; although, in Deneen where the plaintiff likewise
presented evidence of pregnant comparators, the Eighth
Circuit found the evidence relevant.
The Fifth Circuit brushed aside Luke’s evidence
regarding this form of comparator evidence, Further,

11
the Fifth Circuit based its decision on faulty factfinding
asserted by Respondent.. The Fifth Circuit accepted
Respondent’s claim that its CNAs had a lifting requirement
that Luke could not meet, despite Luke’s evidence
disputing the existence of a lifting requirement, and the
absence of a claim or evidence from Respondent that
it gave Luke a written job description that contained
a lifting requirement. Moreover, Respondent’s policies
expressly required CNAs to get help to lift patients and
heavy objects and, similar to Deneen, Respondent did not
consistently require employees to be able to lift heavy
amounts as shown by its practice of requiring employees
to get assistance with lifting and providing modified
work assignments that did not require lifting. Luke
submits that the evidence of her being accommodated
prior to being pregnant with lifting assistance was
enough to raise a genuine issue of material fact regarding
whether Respondent discriminated and to cast doubt on
Respondent’s proffered reason for its actions. Moreover,
it raised the inference that Respondent did not require
all CNAs to be able to engage in heavylifting, but rather
demanded the ability to engage in heavy lifting only from
Luke because her pregnancy complications restricted
her lifting and Respondent could therefore use a lifting
requirement to force Luke out of her job. The Fifth Circuit
has refused to consider Luke’s premise because it has
failed to recognize that Luke could be compared to herself
as a comparator regarding accommodations afforded to
her pre-pregnancy.

12
CONCLUSION
In the matter of Durham vs. Rural/Metro Corporation
bearing docket number 18-14687-pending before the
United States Court of Appeals for the Eleventh Circuit,
the Equal Employment Opportunity Commission filed
an amicus brief in support of Petitioner Kimberlie
Michelle Durham, alleging violation of the Pregnancy
Discrimination Act in ways very similarly alleged by
Petitioner Luke. In its statement of interest, the EEOC
asserts:
“ T he Equ a l Employ ment O pp or t u n it y
Commission (“EEOC”) is charged by Congress
with the administration, interpretation, and
enforcement of Title VII of the Civil Rights
Act of 1964, 42 U.S.C. §§ 2000e et seq., which
includes the Pregnancy Discrimination Act,
42 U.S.C. § 2000e(k). In this case, the district
court ruled that the plaintiff failed to establish
the fourth prong of her prima facie case of
pregnancy discrimination stemming from
the company’s failure to accommodate her
pregnancy-related lifting restriction. The
court’s decision relied on abrogated caselaw
and is contrary to the Supreme Court’s decision
in Young v. United Parcel Service, Inc., 135 S.
Ct. 1338 (2015).
The EEOC has a strong interest in ensuring
that Young is applied correctly. The court’s
m i s a p p l i c a t i o n h a mp e r s t h e EE O C ’s
enforcement efforts and makes it more difficult
for individuals acting as private attorneys

13
general to pursue meritorious claims. We
therefore offer our views to the Court pursuant
to Federal Rule of Appellate Procedure 29(a).”
Petitioner, Eryon Luke asserts that the Fifth Circuit’s
misapplication of Young, will too make it more difficult
for individuals to pursue meritorious claims. As such
Petitioner asserts that her Petition for Certiorari sought
herein should be granted.
				Respectfully Submitted,
Victor J. Woods, Jr.
Counsel of Record
3834 New Prosperity Lane,
Suite A
Addis, Luisiana 70710
(225) 749-8696
victor@dlwlegal.com
Counsel for Petitioner
October 14, 2019

